 U.S. Department of the Interior
 Office of Inspector General




      EVALUATION REPORT


SELECTED TELECOMMUNICATIONS CHARGES,
     DEPARTMENT OF THE INTERIOR

              REPORT NO. 98-I-648
               SEPTEMBER 1998
               United States Department of the Interior
                                                                           I-IN-MOA-003-98
                               OFFICE OF INSPECTOR GENERAL
                                     Washington, DC. 20240




                              EVALUATION REPORT
Memorandum

To:         Assistant Secretary for Policy, Management and Budget

From:       Robert J. Williams                       C.L*~~~~~W-+
            Assistant Inspector General for

Subject:    Evaluation Report on Selected Telecommunications Charges, Department of the
            Interior (No. 9 8 - I - 6 4 8 )

                                    INTRODUCTION
This report presents the results of our evaluation of local telephone directory assistance
charges in the Department of the Interior. The objective of the evaluation was to determine
the feasibility of eliminating local directory assistance and other telephone services, such as
weather and time reporting, to reduce Departmental telecommunications costs.

BACKGROUND
As defined, telecommunications services include the electronic transmission of information
of any type, such as data, sound, video, and facsimile.’ To carry out its telecommunications
mission, the Department of the Interior expended more than $62 million in fiscal year 1995
on telecommunications resources that provide a wide array of voice, data, radio, and video
services to its employees. Telecommunications services, including local telephone directory
assistance, are acquired under the General Services Administration’s Federal
Telecommunications System contract and from local and long-distance telephone companies
serving Departmental offices nationwide. Local telephone directory assistance is provided
by telephone companies to customers to enable them to obtain telephone numbers
electronically. The charges for this service can range from $.25 to $1 .OO per call depending
on the geographical area and the telephone company from which the call is initiated.




‘The American Heritage Dictionary, Second Edition.
SCOPE OF EVALUATION
This evaluation was conducted from December 1997 through March 1998 by contacts with
individuals at selected Departmental offices and bureaus (see Appendix 2) and at telephone
company offices nationwide. As part of the evaluation, we reviewed Departmental and
telephone company documents and records pertaining to local telephone directory assistance
charges for calendar year 1997 and interviewed Departmental personnel in regard to their
directory assistance use.

This evaluation was conducted in accordance with the “Quality Standards for Inspections,”
issued by the President’s Council on Integrity and Efficiency, and accordingly included such
tests and evaluation procedures that we considered necessary under the circumstances. We
also reviewed the Departmental Report on Accountability for fiscal year 1996, which
includes information required by the Federal Managers’ Financial Integrity Act, and
determined that no material weaknesses were included in the report that directly related to
the objective and scope of our evaluation. Because of the limited scope and objective of our
review, internal controls were reviewed only to the extent that they related to the use of local
telephone directory assistance.

PRIOR AUDIT COVERAGE
Neither the Office of Inspector General nor the General Accounting Office has issued any
reports during the past 5 years that addressed charges to the Department of the Interior for
the use of local telephone directory assistance.

                        RESULTS OF EVALUATION
We found that the Department of the Interior did not incur any costs for telephone services
related to weather and time reporting but did incur costs for local telephone directory
assistance. Local telephone directory assistance was available to employees because
telephone companies automatically provided the service. However, Departmental bureaus
and offices had not performed a cost-benefit analysis of this service, and the Department did
not know the full cost of providing this service. We estimated that the Department expended
at least $46,300 during calendar year 1997 to provide local telephone directory assistance to
the offices reviewed.

We found that local telephone directory assistance costs were not centrally accumulated by
the Department or by the telephone companies we contacted and that the Department did not
track or account for these costs separately from other telecommunications costs. As such,
we identified and estimated the costs related to local telephone directory assistance by
focusing on the offices that had the largest numbers of employees. Using this approach, we



                                               2
identified directory assistance costs of $46,300 that the Department incurred in calendar year
1997 as follows:

                               Bureaus                         costs
                     National Park Service                    $15,037
                     U.S. Geological Survey                    10,777
                     Office of the Secretary                    8,151
                     Bureau of Land Management                  3,778
                     Bureau of Reclamation                      2,298
                     U.S. Fish and Wildlife Service             2,572
                     Bureau of Indian Affairs                   1,465
                     Office of Surface Mining                   1,152
                     Minerals Management Service                1,084
                      Total

These costs were calculated by obtaining telephone account information for the offices listed
and the related local directory assistance costs from Bell Atlantic, Bell South, Pacific Bell,
Sprint, and U.S. West for calendar year 1997. We also obtained costs from the Departmental
bureaus and offices and the General Services Administration.

Because the Department has more than 2,000 locations that use hundreds of telephone
accounts nationwide and over 67,000 employees, we believe that the annual cost of directory
assistance was significantly higher than $46,300. We contacted bureau and office
management to discuss whether local telephone directory assistance costs had been analyzed
and whether analyses were performed to determine whether the service was needed to
perform mission-related work. Bureau telecommunications managers said that they were
generally unaware of the amount of funds that were expended for the service. They also said
that they were aware that employees were using local directory assistance but had not
conducted a cost-benefit analysis because summary data were not available and telephone
billing data for these costs were decentralized to field offices.

We found that there were alternatives to using local telephone directory assistance which
were available to employees at no additional cost, such as obtaining numbers from the local
telephone directory, Federal Department locator services, and the Internet. Specifically, each
year the telephone companies provided the number of telephone directories requested by
Departmental offices. These directories included blue pages, which listed Government
agencies; yellow pages, which listed businesses; and white pages, which listed individuals.
Also, according to General Services Administration officials, most Governmental entities,
including the Department of the Interior, have telephone employee locator services to assist
callers in obtaining telephone numbers of offices and individuals within Federal agencies.
Furthermore, employees can obtain telephone numbers and addresses at no additional cost
through the Department’s access to the Internet.


                                              3
As part of our review, we also conducted a telephone survey of 45 randomly selected
employees of the Departmental bureaus and offices nationwide to obtain information
concerning their use of local telephone directory assistance. Of the 45 responses we
received, we found that 37 employees received local telephone directories annually, 39
employees had access to a local telephone directory, 43 employees had access to the
Internet, 30 employees had knowledge of the telephone directory on the Internet, and 35
employees said that their official duties would not be affected if local directory assistance
was eliminated.

Based on our evaluation, we concluded that the elimination of local telephone directory
assistance would save at least $46,300 per year. However, before the Department determines
whether to eliminate local telephone directory assistance, we believe that it should consider
the total costs and benefits of the service as part of its telecommunications survey, which
is planned for fiscal year 1998.

Recommendation
We recommend that the Assistant Secretary for Policy, Management and Budget determine
whether providing local telephone directory assistance is cost effective and efficient after
considering the total annual cost and any benefits of the service. If it is determined not to
be cost effective and efficient, local telephone directory assistance should be discontinued.

Office of the Secretary Response and Office of Inspector General Reply
In the July 15, 1998, response (Appendix 3) f?om the Chief Information Officer, Office of
the Secretary, to our draft report, the Officer stated, “Through extrapolation, we can conclude
that nationwide directory assistance charges may be as high as $150,000.” The Officer also
stated that “there were no instances of employee directory assistance misuse cited in the
report” and that “the benefit of having convenient access to needed telephone numbers is
inherent in providing quality telephone service to our employees.” Further, the Officer stated
that “eliminating local directory assistance may not be worth pursuing in light of other
initiatives where significant cost reductions can be achieved, such as consolidating and
optimizing FTS2000 services, eliminating redundancies and unused telephone lines, and
implementing shared services.” However, the Officer said that the Office would “provide
guidance and notifications to employees that directory assistance calls can be costly and
should be placed only when other means are not available or practical.”

We consider the Officer’s action to “provide guidance and notification to employees”
regarding the expense of directory assistance calls to be sufficient to address our
recommendation. However, the information requested in Appendix 4 should be provided.




                                              4
We appreciate the assistance of Office of the Secretary and bureau personnel in the conduct
of our evaluation.



cc: Solicitor
    Assistant Secretary for Fish and Wildlife and Parks
    Assistant Secretary for Indian Affairs
    Assistant Secretary for Land and Minerals Management
    Assistant Secretary for Water and Science
    Chief Information Officer, Office of Information Resources Management
    Director, National Park Service
    Director, U.S. Fish and Wildlife Service
    Deputy Commissioner, Bureau of Indian Affairs
    Director, Bureau of Land Management
    Director, Minerals Management Service
    Director, U.S. Geological Survey
    Director, Office of Surface Mining Reclamation and Enforcement
    Commissioner, Bureau of Reclamation
    Focus Leader for Management Control and Audit Followup
    Audit Liaison Officer, Office of the Solicitor
    Audit Liaison Officer, Policy, Management and Budget
    Audit Liaison Officer, Fish and Wildlife and Parks
    Audit Liaison Officer, Indian Affairs
    Audit Liaison Officer, Land and Minerals Management
    Audit Liaison Officer, Water and Science
    Audit Liaison Officer, National Park Service
    Audit Liaison Officer, U.S. Fish and Wildlife Service
    Audit Liaison Officer, Bureau of Indian Affairs
    Audit Liaison Officer, Bureau of Land Management
    Audit Liaison Officer, Minerals Management Service
    Audit Liaison Officer, U.S. Geological Survey
    Audit Liaison Officer, Office of Surface Mining Reclamation and Enforcement
    Audit Liaison Officer, Bureau of Reclamation
                                                         APPENDIX 1


             CLASSIFICATION OF MONETARY AMOUNTS

                                             Funds To Be Put
             Finding Area                     To Better Use

Cost of Local Directory Assistance Service     $46,300
                                                                                    APPENDIX 2
                                                                                    Page 1 of 2


                                 OFFICES CONTACTED
                      OFFICE                                          LOCATION
Office of the Secretary
 Communications and Information Systems and Services                  Washington, D.C.

U.S. Fish and Wildlife Service
 Information Resources Management, Headquarters Office                Arlington, Virginia
 Information Resources Management, Region One                         Portland, Oregon
 Contracting & General Services, Region Two                           Albuquerque, New Mexico
 Contracting & General Services, Region Three                         Twin Cities, Minneapolis
 Contracting & General Services, Region Five                          Hadley, Massachusetts
 Contracting & General Services, Region Six                           Lakewood, Colorado
 Contracting & General Services, Region Seven                         Anchorage, Alaska
 Automated Data Processing Division, Region Four                      Atlanta, Georgia

U.S. Geological Survey
 Office of Information Service and
  Telecommunications Services                                         Reston, Virginia
 Western Region Headquarters,
   Branch of Information Services                                     Menlo Park, California
 Water Resources Division, District Office                            Albuquerque, New Mexico
 Water Resources Division, District Office, Administrative Services   Sacramento, California
 Water Resources Division, District Office, Administrative Services   Raleigh, North Carolina
 Water Resources Division, District Office, Administrative Division   Baltimore, Maryland
 Water Resources Division, Sub-District Office, Administration        Tampa, Florida
 Water Resources Division, Woods Hole Field Center                    Woods Hole, Massachusetts
 Earth Resources Observation Systems Data Center,
     Program Budget & Administration                                  Sioux Falls, South Dakota

Office of Surface Mining Reclamation and Enforcement
 Office of Administrative Operations                                  Washington, D.C.
  Western Regional Coordinating Center
   Division of Office Technology
    Transfer & Administrative Support                                 Denver, Colorado
 Appalachian Regional Coordinating Center
   Division of Administrative Services                                Pittsburgh, Pennsylvania
 Knoxville Field Office, Program Support Group                        Knoxville, Tennessee

Bureau of Land Management
 Information Resources Management                                     Washington, D.C.
 Arizona State Office                                                 Phoenix, Arizona
 California State Office                                              Sacramento, California
 Colorado State Office                                                Lakewood, Colorado
 Eastern States Office                                                Springfield, Virginia
                                                                         APPENDIX 2
                                                                         Page 2 of 2

 Montana State Office                                      Billings, Montana
 New Mexico State Office                                   Sante Fe, New Mexico
 Oregon State Office                                       Portland, Oregon
 Wyoming State Office                                      Cheyenne, Wyoming
 Idaho State Office                                        Boise, Idaho
 Nevada State Office                                       Reno, Nevada
 Alaska State Office                                       Anchorage, Alaska
 National Business Center                                  Denver, Colorado

Bureau of Indian Affairs
 Eastern Area Office                                       Arlington, Virginia
 Albuquerque Area Office, Administrative Services          Albuquerque, New Mexico
 Phoenix Area Office, Property Management                  Phoenix, Arizona
 Billings Area Office, Acquisition & Property Management   Billings, Montana
 Portland Area Office, Property Management                 Portland, Oregon
 Division of Accounting Management, Government Unit        Albuquerque, New Mexico
 Division of Property Management                           Washington, D.C.

Bureau of Reclamation
 Administrative Support Group                              Washington, D.C.
 Lower Colorado Region                                     Boulder City, Nevada
 Pacific Northwest Region, Information
 Resources Management Group                                Boise, Idaho
 Mid- Pacific Region, Information Technology Services      Sacramento, California
 Upper Colorado Region, Property & Services Management     Salt Lake City, Utah
 Great Plains Region, Lnformation Technology Group         BiIIings, Montana
 Reclamation Service Center, Finance & Accounting          Denver, Colorado

Minerals Management Service
 Procurement & Support Services Division                   Hemdon, Virginia
 Houston Compliance Division                               Houston, Texas
 Dallas Compliance Division                                Dallas, Texas
 Southern Administrative Service Center                    New Orleans, Louisiana
 Western Administrative Service Center                     Denver, Colorado
    California Administrative Satellite Office             Camarillo, California
    Alaska Administrative Satellite Office                 Anchorage, Alaska

National Park Service
 Information & Telecommunications Center                   Washington, D.C.
 Inter-mountain Region, Administrative Program Center      Denver, Colorado
 Midwest Region, Information Systems & Technology          Omaha, Nebraska
 Southeast Region, Contracting & Property Management       Atlanta, Georgia
 Harpers Ferry Center, Office of Support Services          Harpers Ferry,West Virginia
  Pacific Great Basin Support Office                       San Francisco, California
  Boston Support Office                                    Boston, Massachusetts
  Columbia Cascades Support Office                         Seattle, Washington
  Philadelphia Support Office                              Philadelphia, Pennsylvania
                                                                                               APPENDIX


                     United States Department of the Interior
                                    OFFICE OF THE SECRETARY
                                       Washington, DC. 20240



MEMORANDUM

To:        Ronald K. Stith
           Acting Assistant Inspector Generai for Audits

From:      Daryl    W. Whit
           Chief Informati

Subject:   Draft Evaluation Report on Selected Telecommunications Charges

The draft evaluation report recommends that the Assistant Secretary - Policy, Management and
Budget conduct a cost-benefit analysis to determine whether it is cost effective and efficient to
continue providing local telephone directory assistance to employees. This recommendation is
based on a finding that neariy $50,000 was expended within the Department in calendar year
1997 to provide local telephone directory assistance. The report identified alternatives which
employees could use to obtain telephone numbers at no direct cost. These included the use of
telephone directories, agency locator services, and the Internet.

The reported %46,3 14 cost of directory assistance services was identified by tallying costs at
locations where 20,871 employees work. Through extrapolation, we can conclude that
nationwide directory assistance charges may be as high as $150,000. Whiie I agree these costs
could be reduced if access to directory assistance was controlled or eliminated, I do not believe
a cost-benefit analysis is the answer. There were no instances of employee directory assistance
misuse cited in the report and our employees apparently do not access weather or time reports
on the teiephone.

The benefit of having convenient access to needed telephone numbers is inherent in providing
quality telephone service to our employees. The cost of providing directory assistance is a
necessary cost of doing business. In spending more than $60 million annually for
telecommunications services it is important for us to concentrate our attention on savings
opportunities with the greatest potential benefit. Studying the cost-benefits of inconveniencing
our employees by eliminating locai directory assistance may not be worth pursuing in light of
other initiatives where significant cost reductions can be achieved. such as consolidating and
optimizing FTS2000 services, eliminating redundancies and unused telephone lines. and
implementing shared services.

In response to your report, we wiil provide guidance and notifications to employees that
directory assistance calls can be costly and should be placed only when other means arc not
availah te or practical.




                                                9
                                                                           APPENDIX 4

          STATUS OF AUDIT REPORT RECOMMENDATION

    Finding/
Recommendation
   Reference            Status                           Action Reauired

      1          Management                 Provide a target date and the title of the
                 concurs; additional        official responsible for providing the
                 information needed.        guidance and notification to employees.




                                       10
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:

Sending written documents to:                                  Calling:


                     Within the Continental United States

U.S. Department of the Interior                       Our 24-hour
Office of Inspector General                           Telephone HOTLINE
1849 C Street, N.W.                                   l-800-424-508 1 or
Mail Stop 5341                                        (202) 208-5300
Washington, D . C . 20240


                                                      TDD for hearing impaired
                                                      (202) 208-2420 or
                                                      l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Retion

U.S. Department of the Interior                       (703) 235-922 1
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201

                                    North Pacific Retion

U.S. Department of the Interior                       (67 1) 647-605 1
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
                           t
 1-800-424-5081            :
 TDD l-800-354-0996
                           i
                           5
FT’S/Commerciai Numbers:
 (202) 208-5300            !
 TDD (202) 208-2420        c


 HOTLINE Ei.
1849 C Stree& N.W.
